Jim
I

C@OQCKLE

E E-Mail Address:
Legal B ta efs contact@cocklelegalbriefs.com
at, 1623

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-1029

CITY OF AUSTIN, TEXAS,
Petitioner,
Ye.
REAGAN NATIONAL ADVERTISING
OF TEXAS, INC., et al..
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE INSTITUTE FOR FREE SPEECH IN SUPPORT OF RESPONDENTS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2777 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 29th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska & a 4 ),
RENEE J. GOSS 9 " ( eral tae A
Notary Public

Affiant 41434

 
